No. 20-8291

In the

Supreme Court of the United States
SCOTT NATHAN WEHMHOEFER, Petitioner
v.

UNITED STATES OF AMERICA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

Reply Brief In Support of
Petition for Writ of Certiorari

CUAUHTEMOC ORTEGA
Federal Public Defender
BRIANNA MIRCHEFF*
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012-4202
Telephone: (213) 894-4784
Facsimile: (213) 894-0081
Attorneys for the Petitioner
* Counsel of Record

REPLY IN SUPPORT OF CERTIORARI
The government’s arguments for denying the writ in this case miss the
mark. The United States argues that the Fifth Circuit has held that Texas
aggravated robbery is not divisible and that the Court generally defers to
regional courts of appeal in matters involving the construction of state law.
Gov’t Memorandum at 3.
There is no question what Texas law requires; there is only a dispute
about what Texas’s construction of its statute means for the divisibility
analysis required by this Court. In Cooper v. State, 430 S.W.3d 426 (Tex. Ct.
Crim. App. 2014), the Court held that robbery-by-injury and robbery-by-threat
“are simply alternative methods of committing a robbery” and cannot be
charged as separate offenses. Id. at 434; see also id. at 439. Since Cooper, Texas
courts have read the decision to make that a defendant has no right to juror
unanimity when charged with robbery-by-threat and robbery-by-injury,
because the two factual variants “are different methods of committing the same
offense.” Burton v. State, 510 S.W. 3d 232, 237 (Tex. Ct. App. 2017). And, under
Texas law, where “alternate theories involve commission of the ‘same offense,’”
a trial court “may submit a disjunctive jury change and obtain a general
verdict” without running afoul of the rules requiring jury unanimity. Id.
There is no open question what these holdings mean in practical terms
for defendants in Texas. Defendants are routinely charged as to both theories
1

in a single count. E.g., Martin v. State, 03-16-198-CR, 2017 WL 5985059, at *3
(Tex. Ct. App. Dec. 1, 2017) (describing count 1 of the indictment as charging
defendant with robbery by “either: (1) causing him bodily injury or (2)
threatening or placing him in fear of imminent bodily injury”); Randle v. State,
05-12-641-CR, 2013 WL 3929208, at *1 (July 26, 2013) (describing charging
document alleging both theories of robbery in one count). And juries in Texas
are routinely instructed that they can return a guilty verdict if they find
robbery-by-threat or robbery-by-injury, without any requirement that they be
unanimous as between the two. Burton, 510 S.W. 3d at 237; Alexander v. State,
02-15-406-CR, 2017 WL 1738011, at *7 (Tex. Ct. App. May 4, 2017) (reciting
jury instructions permitting jury to return general verdict for offense of
robbery, without unanimously selecting robbery-by-threat or robbery-byinjury); Sidney v. State, 560 S.W.2d 679, 680 (Tex. Ct. Crim. App. 1978) (en
banc) (affirming conviction where jury was instructed that they could convict
if they found “the defendant . . . did . . . intentionally or knowingly cause[]
bodily injury to said owner or intentionally or knowingly threatened or placed
said owner in fear of imminent bodily injury”); Owens v. State, 01-96-1037-CR,
1999 WL 111494, at *4 (Tex. Ct. App. 1999) (affirming conviction with similar
jury instruction); Morrison v. State, 02-11-61-CR, 2012 WL 1432591, at *2 (Tex.
Ct. App. 2012) (affirming similar jury instruction).

2

The only question here is whether the two variants of Texas robbery are
divisible under this Court’s caselaw, where Texas law holds that the variants
are means and not element, where the two variants are charged in a single
count, and where they are presented to the jury without any required finding
of unanimity. That is an easy question under Mathis--and one the
government’s memorandum doesn’t even attempt to take on. With an
unwarranted life sentence hanging in the balance, this Court should
summarily reverse and send the case back for further review.
The Court should grant Mr. Wehmhoefer’s petition for writ of certiorari,
summarily reverse the Court’s divisibility holding, and remand for further
proceedings.
Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender
DATED: August 23, 2021

_______________________________
By: BRIANNA MIRCHEFF
Deputy Federal Public Defender
Attorney for the Petitioner

3

